<html>
<title> - EXAMINING THE TRUMP ADMINISTRATION'S AFGHANISTAN STRATEGY, PART 2</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                  EXAMINING THE TRUMP ADMINISTRATION'S

                      AFGHANISTAN STRATEGY, PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2020

                               __________

                           Serial No. 116-118

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-957 PDF           WASHINGTON : 2020                              
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                     Daniel Rebnord, Chief Counsel
                       Cameron MacPherson, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Glenn Grothman, Wisconsin, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Michael Cloud, Texas
Mark DeSaulnier, California          Clay Higgins, Louisiana
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Bob Gibbs, Ohio


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2020...............................     1

                               Witnesses

Ambassador Zalmay Khalilzad, Special Representative for 
  Afghanistan Reconciliation, Department of State................
Oral Statement...................................................     4
David F. Helvey, Performing the Duties of Assistant Secretary of 
  Defense for Indo-Pacific Security Affairs, Department of 
  Defense
Oral Statement...................................................     7

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Letter from Lower House of the Parliament National Interest 
  Preservation Group of the Islamic Republic of Afghanistan; 
  submitted by Subcommitte Chairman Stephen Lynch.

  * Questions to be answered in writing following the 
  negotiations; submitted by Subcommittee Chairwoman Carolyn 
  Maloney.

  * Questions for the Record: to Mr. Ambassador Khalilzad; 
  submitted by Chairwoman Maloney.

  * Questions for the Record: to Mr. Helvey; submitted by Rep. 
  Robin Kelly.



                  EXAMINING THE TRUMP ADMINISTRATION'S

                      AFGHANISTAN STRATEGY, PART 2

                              ----------                              


                      Tuesday, September 22, 2020

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 11:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Cooper, Welch, Rouda, 
Wasserman Schultz, Kelly, Plaskett, Lawrence, Grotham, Foxx, 
Cloud, Higgins, and Green.
    Also present: Representative Malinowski.
    Mr. Lynch. The committee will now come to order. Without 
objection, the Chair is authorized to declare a recess of the 
committee at any one time. I now recognize myself for an 
opening statement.
    Good morning, everyone. Before we begin, I would like to 
take a moment to honor the memory of the late Supreme Court 
Justice, Ruth Bader Ginsburg. Justice Ginsburg was a force for 
good on the Supreme Court and a true champion for justice, 
equality, and the balance of power in our representative 
democracy. May she rest in peace.
    To commence with our hearing, 11 days ago, our country 
marked the 19th anniversary of the September 11 terrorist 
attacks. Like Pearl Harbor, 60 years early, September 11 will 
forever be etched in American history as a date that we will 
never forget. And we will always remember the 2,977 souls that 
we lost on that horrific day.
    After the 9/11 attacks, the United States went to war 
against al-Qaida and their Taliban hosts in Afghanistan. Since 
then, the conflict has taken the lives of 2,448 American 
servicemembers, and injured tens of thousands more.
    In a significant milestone earlier this year, the United 
States and the Taliban on February 29 signed an agreement for 
bringing peace to Afghanistan, which outlined a way forward for 
the complex and complete withdrawal of U.S. forces by mid-2021. 
In exchange, the Taliban promised to come to the negotiating 
table with the Kabul government to prevent terrorist groups, 
such as al-Qaida, from using Afghanistan to stage attacks 
against the United States and our allies.
    Despite multiple indications that the Taliban had not fully 
met their commitments under the February agreement, the Trump 
administration has steadily withdrawn U.S. forces from 
Afghanistan, which has seated much of our leverage to help 
shape the future of Afghanistan for its people and our national 
security interests.
    In fact, in an interview airing over the weekend, former 
Trump administration and National Security Advisor, H.R. 
McMaster, described the withdrawal of U.S. forces from 
Afghanistan as quote, ``an unwise policy.'' Instead, he argued 
that what we require in Afghanistan is a sustained commitment 
to help the Afghan Government and help the Afghan security 
forces continue to bear the brunt of this fight.
    Since U.S. forces began to withdraw from Afghanistan 
following the February agreement, security conditions on the 
ground have deteriorated. In June, the Department of Defense 
estimated that the Taliban sustained levels of violence five 
times higher than those observed during a February 2020 
reduction in violence, period. And U.S. CENTCOM command--
Commander General Kenneth McKenzie later described these 
escalations as not consistent with someone negotiating in good 
faith.
    Nevertheless, after months of violence, delay, and a 
contentious prisoner exchange, the government of Afghanistan 
and the Taliban finally met in Doha earlier this month to begin 
intra-Afghan negotiations. Many Afghans remain deeply 
distrustful of the Taliban's true intention. In particular, 
many Afghans, especially women and girls, are justifiably 
concerned that human rights and democratic gains they have 
achieved with the U.S. support since 2001 could become 
jeopardized if the Taliban return to power through force or 
through a negotiated settlement.
    Given the legacy of past failures, we must remain clear-
eyed about the stakes at this moment. If the Taliban are 
unwilling or unable to abide by their commitments, or if 
political negotiations collapse, the resulting crisis will 
likely have a grave consequence for those Afghan people, 
regional stability, and international security.
    So, I'm grateful to our witnesses, especially 
representative for Afghan reconciliation, Zalmay Khalilzad. 
Thank you, Ambassador. And Principal Deputy Assistant Secretary 
of Defense for Indo-Pacific Affairs, David Helvey. Thank you, 
Mr. Secretary, for being here today to answer our questions 
about the risks and the Trump administration's ongoing efforts 
to bring the U.S. war in Afghanistan to a close.
    While we are all eager for our sons and daughters in 
uniform to return home, it is also important that we do not 
needlessly or recklessly bargain away the rights and freedoms 
that the Afghan people have gained at such a huge cost in 
American coalition and Afghan lives. With that, I will now 
yield to the gentleman from Wisconsin, our ranking member, Mr. 
Grothman, for his opening statement.
    Mr. Grothman. Thank you much. Thank you much, and a very 
important topic and continues to be an important topic, and I'm 
glad that you're having this hearing.
    I am pleased to have these witnesses here today. Through 
the hard work of the Trump administration, there may very well 
be a prospect for peace in Afghanistan at last. They've had 
other successes in the Middle East. Recently, Bahrain and the 
United Arab Emirates entered into treaties of peace, diplomatic 
relations, and full normalization between those countries and 
the state of Israel, something that I never would have dreamed 
about a few years ago. Those agreements will have an immediate, 
positive, and lasting impact on the prospects for peace in the 
region. The Trump administration's prioritized peace in 
Afghanistan is its strategy, and the goal is to ensure that the 
country does not become a haven for terrorist activity in the 
future.
    The U.S. and the Taliban entered into a joint declaration 
this February with stipulations that the Taliban would cease 
attack in coalition forces in exchange for U.S. troops draw-
down. The declaration also came with the condition that the 
Taliban and the Afghan Government entered into peace 
negotiations with a discussion of cease-fire firmly on the 
table. Although these peace negotiations were delayed for 
months, they commenced on September 12 of this year, and I am 
hopeful that the negotiations--the negotiators reached an 
agreement that leads to stable and long-lasting peace in 
Afghanistan--one that protects the rights of all citizens in 
the country, including women.
    The obstacles we face are complex. We cannot afford to be 
deterred. I am interested to hear from the Ambassador how we 
get this right, despite the challenges that lie ahead. More 
than 2,400 brave men and women have lost their lives in 
Afghanistan, fighting on behalf of the United States, either 
during Operation Enduring Freedom or Operation Freedom's 
Sentinel.
    The U.S. has been invested in Afghanistan for 19 years, 
with the U.S. taxpayer cost for warfighting or reconstruction 
reaching $1 trillion for 2001. That $1 trillion, by the way, 
would sound a lot bigger a year ago than it does now. The cost 
for monetarizing the lives of U.S. soldiers cannot continue. I 
applaud this administration for seeking to bring an end to this 
conflict.
    We've got to get this right. It isn't just the Afghan 
people who benefit. The veterans who fought, and the American 
people deserve to have a peaceful Afghanistan that does not 
permit terrorists to operate in that country, to perpetuate tax 
against the United States.
    I am going to emphasize again what a great job I think 
you've done. How foreign affairs is a difficult thing, and I am 
not being partisan here, but, you know, I can't help but wonder 
if President Trump was the President in 2001, whether we would 
have gone so, I would argue, overboard like President Bush did, 
I don't think we would have.
    Again, I think if President Trump had been elected and took 
office in 2009, we wouldn't have the herky-jerk pulling out of 
Iraq, which I think was also disastrous.
    So, you know, I think he's kind of hitting that sweet spot 
from between where President Bush was and President Obama did. 
And I really appreciate you guys being part of his team.
    I am pleased to welcome you here today. Your leadership is 
having a positive effect on Afghanistan. I want to thank the 
Trump administration for their efforts to bring about a 
peaceful solution. And I look forward to your testimony today. 
Thank you.
    Mr. Lynch. The gentleman yields back. One housekeeping 
matter here. Without objection, the gentleman from New Jersey, 
Mr. Malinowski, shall be permitted to join the subcommittee and 
be recognized for questioning the witnesses, as procedure 
allows.
    Now, I would like to introduce our witnesses. Our first 
witness today is Ambassador Zalmay Khalilzad, who is the 
special representative for Afghan Reconciliation at the 
Department of State. And we will hear from David F. Helvey, who 
is performing the duties of Assistant Secretary of Defense for 
Indo-Pacific Security Affairs at the Department of Defense.
    In accordance with the committee rules, would you both, 
please, rise and raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record reflect that the witnesses have both 
answered in the affirmative. Please be seated.
    Without objection, your written statements will be made 
part of the record. With that, Ambassador Khalilzad, you are 
now recognized for your testimony.

    STATEMENT OF HON. AMBASSADOR ZALMAY KHALILZAD, SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN RECONCILIATION, U.S. DEPARTMENT 
                            OF STATE

    Mr. Khalilzad. Thank you very much, Mr. Chairman. I would 
like to join you in offering condolences to the Ginsburg 
family, and may her soul rest in peace.
    Good morning, Mr. Chairman, Ranking Member Grothman, and 
distinguished members of the committee, I regret the 
circumstances did not allow me to appear before this committee 
sooner. During the last several months, I regard making myself 
available to Congress as one of my most significant and 
important responsibilities, and I welcome this opportunity 
today, and I am honored to brief you.
    I was appointed the U.S. Special Representative for 
Afghanistan Reconciliation in September 2018 with a mandate to 
find a diplomatic formula that brings an end to America's 
longest war, reduces the burden on the U.S. military and 
taxpayers, provides the best chance for a sovereign, unified, 
and representative Afghanistan, at peace with itself and its 
neighbors, and respectful of the human rights of all its 
citizens, and most importantly, ensures terrorists can never 
again use Afghan soil to threaten the security of the United 
States and our allies.
    Underlying this mandate was an assumption that there was no 
realistic or viable military solution to this complex conflict. 
To pursue these objectives, we engaged in direct talks with the 
Taliban and the Afghan Government in parallel. Our goal was to 
secure counterterrorist guarantees from the Taliban, alongside 
their commitment to engage in direct negotiations with the 
Islamic Republic of Afghanistan on a political settlement and 
permanent and comprehensive cease-fire.
    Eighteen months of intense diplomacy led to two significant 
milestones: On February 29, the United States and the 
Government of Afghanistan jointly declared their commitment to 
reach a comprehensive and sustainable peace agreement to end 
the war in Afghanistan, including guarantees to prevent the use 
of Afghan soil by any international terrorist groups or 
individuals against the security of the United States and its 
allies.
    A condition-based timeline for withdrawal of the U.S. and 
coalition forces from Afghanistan. A political settlement 
resulting from inter-Afghan dialog and negotiations between the 
Taliban and inclusive negotiating team of Islamic Republic of 
Afghanistan, and a permanent and comprehensive cease-fire.
    That same day, the United States signed an historic 
agreement with the Taliban that would make negotiations 
possible. That agreement has four elements: The first is a 
commitment by the Taliban to prevent any group or individual 
from using Afghan soil to threaten the security of the United 
States and its allies. On that, we have seen some progress. 
It's also important to stress that since the signing of the 
agreement, the Taliban have instructed their forces to refrain 
from attacks on U.S. and coalition forces. There have been no 
American deaths as a result of Taliban attacks since the 
agreement was signed. And we continue to engage regularly with 
the Taliban to oversee the implementation of our agreement with 
respect to these issues and to address issues of concern.
    The second is a timetable for withdrawal of American and 
coalition forces. That withdrawal is condition-based. We are on 
the path to reduce troops to levels between 4-and 5,000 by this 
fall. And further withdrawals will be determined based on 
conditions on the ground and delivery by the Taliban on their 
commitments.
    The third is a start of Afghan peace negotiations. As you 
know, the talks opened on September 12, a truly historic 
moment. The Afghan delegation from the parties to the conflict 
that are sitting across from each other without international 
mediators or facilitators have the opportunity to bring an end 
to more than 40 years of war in their country. The talks are an 
Afghan-led and Afghan-owned process where two warring sides are 
negotiating a roadmap for the future of their country. The 
Afghans are yearning for peace, and there is overwhelming 
support among them for these talks and for a political 
settlement.
    Finally, the Taliban agreed that the permanent and 
comprehensive cease-fire would be on the agenda in Afghan peace 
negotiations. By any measure, the current levels of violence 
are too high. We know that the reductions are possible. The 
Taliban carried out two Eid cease-fires and earlier, a seven-
day reduction in violence preceding the February 29 signing of 
the agreement between the United States and the Taliban.
    We hope that the current negotiation will soon lead to a 
significant reduction in violence by all sides, reducing the 
number of Afghans getting killed or wounded. A reduction of 
violence will help build the trust necessary for these talks to 
succeed. We, for our part, will continue to press for this 
objective.
    A political settlement in Afghanistan needs broad, 
internal, regional, international support. We have worked 
closely with Afghanistan's neighbors and international partners 
to build support for Afghanistan's peace negotiations. You can 
see the impact of that effort in the list of countries and 
organizations that were represented at the opening ceremony of 
the Afghan peace negotiations on September 12, and in the U.N. 
Security Council Statement welcoming the start of these 
negotiations.
    These achievements are the result of two years of intense 
diplomacy, and have already resulted in American lives saved, 
the burden on the American taxpayers listened, and giving the 
Afghans historic opportunity for a political settlement that 
ends their long war.
    Now, with an Afghan-led, Afghan-owned process and 
delegations that represent the country's strength and 
diversity, including the Afghan Government's political leaders, 
members of civil society, women, and religious, and ethnic 
minorities, the people of Afghanistan have reason to hope 
again.
    I have urged the Afghanistan leaders to take advantage of 
the opportunity for a political settlement now available to 
them. Unfortunately, Afghan leaders did not behave responsibly 
or judiciously after the Soviet forces departed their country 
as a result of a resistance movement that had been backed by 
the United States. Instead of cooperating and agreeing on a 
political formula for their country, they started a vicious 
civil war. We will help Afghanistan seize historic moment, and 
avoid repeating what happened in the 1990's. But, ultimately, 
the responsibility is theirs.
    Our strategy going forward, Mr. Chairman, is: one, 
continuing holding the Taliban to the commitments they made in 
February 29 agreement, including on combating international 
terrorism and discussing a permanent and comprehensive cease-
fire at the peace negotiations; two, adjust our force posture 
consistent with the agreement and conditions in Afghanistan. We 
are on a path to reduce our troops, as I said before, to 
between 4-and 5,000, and with further reductions possible, but 
based on conditions.
    I want to assure this committee that we will always 
maintain the ability to protect the United States. But staying 
in Afghanistan militarily is not an end in itself. Our goal for 
Afghanistan is a nation of peace with itself and with its 
neighbors, and firmly aligned with the United States and our 
allies against international terrorism; three, support the 
party's effort to reach a negotiated political settlement while 
speaking out about our values. The inclusion of women and 
religious and ethnic minorities in the negotiations is a 
landmark step in the right direction. The United States will 
continue to advocate their values, including electoral 
democracy, rights of women and religious minorities, rule of 
law, free speech, and free press.
    At the same time, we recognize that only Afghans can find a 
sustainable formula that's unique to their history and culture. 
While we do not seek to impose our system on others, we have 
made it clear to the negotiators that their choices and combat 
will affect the size and scope of future U.S. assistance. Then 
this is the position shared by Afghanistan's other major 
donors. Four, continue to work with regional international 
partners and donors to build international support for 
Afghanistan peace. Negotiations and support of our Afghanistan 
long-term stability and self-reliance.
    While we have reasons to be hopeful, we are under new 
illusions about the challenges ahead. The conflict in 
Afghanistan is especially complex, and negotiators will have to 
overcome personal interest and political differences, while 
representing diverse constituencies. We expect that there will 
be setbacks and obstacles. This task that we have carried out 
so far has been, as required, a diverse and dynamic team made 
up of State Department foreign service officers, civil 
servants, and detailees leads from across the U.S. Government. 
We have also partnered closely and effectively with the 
Department of Defense, especially General Scott Miller, the 
Commanding General of the U.S. and NATO forces in Afghanistan.
    The whole-of-government effort reflects the best, in my 
judgment, of American diplomacy. Mr. Chairman, ranking member, 
and distinguished members, I'm grateful for the opportunity to 
share this summary of the effort that we have made, challenges 
and progress of the past two years. And I look forward to your 
guidance, feedback, and support as we seek to consolidate this 
moment of promise to end this war responsibly. Thank you, sir.
    Mr. Lynch. Thank you, Ambassador. Secretary Helvey, you are 
now recognized for five minutes.

 STATEMENT OF DAVID HELVEY, PERFORMING THE DUTIES OF ASSISTANT 
 SECRETARY OF DEFENSE FOR INDO PACIFIC SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Helvey. Good morning, and thank you, Mr. Chairman, 
Ranking Member Grothman. I would also like to acknowledge 
Chairwoman Maloney, who has joined other members of this 
committee. I would like to thank you, again, for the 
opportunity to brief you today on our strategy for Afghanistan.
    In the wake of the 19th anniversary of the attacks on 
September 11, 2001, there's perhaps no more fitting time to 
discuss with Congress, or with the American people, the 
importance of our mission in Afghanistan in keeping America 
safe against terrorist attacks. It's my privilege to focus my 
remarks today on the Department of Defense's strategy in 
Afghanistan, the criticality of our partners--partnerships in 
achieving our objectives, and our expectation of the Taliban in 
upholding their commitments under the U.S. Taliban agreement.
    Pursuant to the 2017 South Asia Strategy, the Department of 
Defense's key objective in South Asia is to ensure that 
Afghanistan never again becomes a safe haven for terrorists who 
may threaten the United States or our allies. The strategy 
prioritizes ending the war through a political process, 
acknowledging that there is no military solution to the 
conflict. To achieve this objective, the Department conducts 
two complementary missions: one, the NATO-led Resolute Support 
Mission, which is focused on training, advising, and assisting 
the Afghan National Defense and Security Forces, or ANDSF; and 
the second is the U.S. Counterterrorism Mission that works with 
our Afghan partners to mitigate terrorist threats.
    We actively combat ISIS Khorasan, al-Qaida, and other 
terrorist groups in Afghanistan. Although these terrorists are 
severely degraded, continued pressure on them remains vital to 
ensuring that our homeland is never again attacked as it was on 
September 11, 2001.
    On February 29, 2020, an historic agreement was signed 
between the United States and Taliban. And the release to end 
of a parallel U.S.-Afghanistan Joint Declaration served as a 
pivotal moment in the path toward peace in Afghanistan. Since 
then, U.S. forces have adjusted to adhere to U.S. commitments 
within the agreement. We have reduced our force level to 8,600 
and turn five bases over to our Afghan partners.
    The commander of U.S. forces and Afghanistan's authorities, 
however, have not changed. U.S. forces continued to defend the 
ANDSF against the attacks by the Taliban, and we are not 
conducting offensive attacks against the Taliban.
    We have long maintained that our force presence in 
Afghanistan is conditions-based. This August, the President 
made a determination that the conditions in Afghanistan were 
sufficient to reduce our force presence to between 4,000 and 
5,000 by the end of November 2020. At this force level, we 
maintain the core aspects of the train, advise, and assist, and 
our counterterrorism mission. First and foremost, however, 
we're maintaining the ability to protect the force in 
Afghanistan.
    I would like to make clear that the Secretary has not 
issued orders to reduce military personnel below this 4,000 to 
5,000 level in Afghanistan, although, we are conducting prudent 
planning to withdraw to zero servicemembers by May 2021 if 
conditions warrant for the U.S.-Taliban agreement. As Secretary 
Pompeo said in Doha, the Taliban must uphold their 
counterterrorism guarantees to the United States. We also 
expect the Taliban to meaningfully participate in Afghan peace 
negotiations, and to do their part in preventing outside actors 
from negatively impacting the peace process.
    Over the last seven months, our ANDSF partners have 
conditioned to demonstrate resilience in the face of high 
levels of violence, resolve in their fight against 
international terrorist organizations, and a commitment to a 
better, more secure, and prosperous Afghanistan. But for 
progress toward peace to continue, the Taliban must reduce 
violence against the Afghan security forces and Afghan 
civilians. Taliban violence, quite frankly, has been 
unacceptably high for too long.
    We urge the Taliban, the Afghan Government, and the Afghan 
people to choose a path toward peace. Peace agreements are not 
signed between friends. They're negotiated between parties that 
must reconcile a shared desire for peace against years of 
bloodshed and grievance. We are encouraged that the Afghan 
peace negotiations are underway, and are supportive of the 
Afghan-led and Afghan-owned process.
    Last, the Department of Defense remains committed to 
transparency to the American people regarding our efforts in 
Afghanistan. The Department understands that certain efforts on 
the way to peace, like the recent prisoner releases, will cause 
painful emotions to resurface for the families who lost loved 
ones on September 11, 2001, and in Afghanistan, over the 
subsequent years.
    Their sacrifices are not lost on us. It is because of these 
sacrifices that we have advanced progress toward making America 
safer, and ensuring that Afghanistan is never again used as a 
safe haven for terrorists. These decisions, though difficult, 
remain focused on achieving the same noble end state for which 
so many have fought. We're grateful, and we continue to honor 
their sacrifice.
    Mr. Chairman, ranking member, members of the committee, 
thank you again for the opportunity to testify today, and I'm 
happy to take any questions that you may have.
    Mr. Lynch. Thank you very much. I will now yield myself 
five minutes for questions. First of all, Ambassador, I want 
you to know that I fully appreciate the difficulty of your 
task. As someone--I was elected on September 11, the day of the 
attacks in the Democratic primary in Massachusetts. I 
immediately came to this committee. I have been a member for 19 
years now and have had many, many, many trips to Afghanistan, 
and I understand the complexity that you face, and the 
difficult task that you face. So--but nothing that I ask or say 
here from this chair diminishes the difficulty that you face. 
And we appreciate your service to our country and your efforts 
on our behalf. We do. We appreciate that.
    We had a chance to meet with the Afghan team, Ashraf Ghani 
and his team, at the Munich Security Conference. We also met 
with the U.S. negotiating team as well, at the negotiations--at 
the Munich Security Conference some months ago. And we learned 
that the U.S. negotiations did not include, as a priority, the 
status of women and girls in Afghanistan. And I got a letter 
yesterday from, I think it's 19 members of the Afghan 
Parliament.
    And I am going to ask unanimous consent to enter into the 
record the letter from the Islamic Republic of Afghanistan, 
Lower House of the Parliament National Interest Preservation 
Group, to this committee. Without objection, so ordered.
    Mr. Lynch. It says, it's rather pointed, and it's--in its 
message. And one of the most important excerpts of this two-
page letter, I will read as follows: It calls upon the United 
States to rise to the occasion, and I am quoting now, rise to 
the occasion by standing up for the great cause of women's 
rights, which is indisputably human rights, and let this deal, 
this agreement, be known as one that preserved the rights of 
every Afghan man and woman, not a deal that prevents little 
girls from going to school, not a deal that leads to the 
destruction of our institutions, and not a deal that backtracks 
on the great achievements of freedom and democracy. Those 
achievements purchased at a high price among U.S. 
servicemembers as well as coalition and Afghan forces as well.
    How is it that--and I understand that you don't set the 
parameters for negotiations, you conduct them. So, this is not 
your decision. But how do we--how do we demonstrate to the 
Taliban that the status of women and girls is a major priority 
in restoring that country's stability, advocating for human 
rights in that country, when we don't list it as a priority in 
our negotiations, but instead leave it to the Afghans to fight 
that fight? Isn't that--that's an American ideal. It's a 
democratic ideal. And please explain how--how omitting that as 
a priority for us, for our country, helped the Afghan 
Government achieve a lasting peace?
    Mr. Khalilzad. Thank you, Chairman, for that question and 
sentiment, and belief behind it. I want to assure you that 
human rights, women's rights, the rights of minorities and 
children, indeed, all citizens of Afghanistan, particularly, 
women, is of a highest importance to the United States. And I 
have a track record personally in helping the Afghan women when 
the post-9/11 government was drafting the constitution, that we 
stood with them. And I want to, through this hearing, want to 
assure the Afghan women that we will be with them.
    We have--I have met just--I just arrived from Doha, and I 
met with the women members of the delegation twice before 
leaving for the United States. And I have left the team behind 
to--while I'm gone, to make sure that, in the negotiations, the 
women's future of the achievement that I am very proud of, and 
we should all be proud of.
    Mr. Lynch. Ambassador, I have to interject, though.
    Mr. Khalilzad. Please.
    Mr. Lynch. We were told by the Afghan team and the U.S. 
team that the status of women and girls in Afghanistan was not 
a lead priority for us. That it was going to be the part of the 
Afghan Government to negotiate that. Am I wrong in that, 
because I have been told that by both sides in the 
negotiations?
    Mr. Khalilzad. Well, of course, that the negotiations that 
resulted in the agreement was signed and dealt with four issues 
that I described, and one of which is inter-Afghan 
negotiations. And as I mentioned in my statement, to us, these 
negotiations are not yet completed, because the four elements 
are a package agreement. The terrorism, withdrawal into Afghan 
negotiations including----
    Mr. Lynch. But none of those four, specifically, raise--
none of those four parts. The part that you're referring to was 
the part that you were going to hand off to the Afghans to 
negotiate. That was part of the--one of the four. That was one 
of the four elements.
    Mr. Khalilzad. Sure.
    Mr. Lynch. And it could contain anything, right? The part 
that you give to the Afghan Government could contain anything. 
But the issues that we supported, obviously, national security, 
interest of the United States, and I understand that, that's 
very important, very important priority.
    Mr. Khalilzad. Right.
    Mr. Lynch. But I also think the status of after all we've 
been through, the most important accomplishment, I think in 50 
years looking back, we taught a quarter of a million Afghan 
women how to read and write. It's probably going to be the 
biggest impact in that country in the next 50 years. It will be 
the one accomplishment that we can look at that made a 
difference, but not yet. And yet, the rights of women and girls 
was not included as a priority for us going into negotiations, 
and the Taliban knew that. And I just think that it undermined 
their efforts and our efforts by neglecting that priority.
    Mr. Khalilzad. I respectfully, very respectfully disagree. 
This is an unfinished package yet. We are in the middle of it. 
Some things have been settled. Two issues have not been settled 
yet. And even with regard to the issues we have reached an 
agreement on, implementation, we are watching closely. And we 
will be involved, although it's Afghan-owned and Afghan-led 
negotiations, we will be involved, and we will monitor, and we 
will express ourselves forcefully. And I want to assure you 
that the women's rights issues, the achievement that we should 
be very proud of--and I'm glad you have listed what we have 
achieved--we will be very supportive, and depending on 
decisions that they make, that will affect the future of U.S. 
policy toward Afghanistan.
    Mr. Lynch. I appreciate that. I have far exceeded my time 
limit. I want to thank you. I just think it should have been 
established at the outset, not in the middle of negotiations 
introducing that as an issue.
    I want to yield to my friend and colleague, the gentleman 
from Wisconsin, Mr. Grothman, and I will afford him the extra 
time that he needs.
    Mr. Grothman. That's OK. Thank you. That's very kind of 
you. I'm not sure, you have a very, very difficult job, but I 
want to begin by kind of letting you describe what a difficult 
of a job it is.
    How many ethnic groups are there in Afghanistan, or do you 
have a general idea?
    Mr. Khalilzad. Over a dozen.
    Mr. Grothman. OK. How many different major, what I call 
major languages?
    Mr. Khalilzad. Three or four major languages.
    Mr. Grothman. So, you're dealing with people with different 
languages. Has there traditionally been a lot of religious 
freedom in Afghanistan?
    Mr. Khalilzad. There have been tension between religious 
parties, but Afghanistan generally has been historically a more 
moderate kind of relations among sects within Islam, and in 
terms of relations with non-Muslim minorities as well.
    Mr. Grothman. As I understand it, there are many, many, 
different ethnic groups. The Taliban, insofar as they fight, 
it's not even a regular army, is it? It's a variety of 
different people, they come and they go?
    Mr. Khalilzad. Oh, yes, there are tribes besides ethnic 
groups, and there are political parties. There are the old 
elite of Afghanistan representing tribes and ethnic 
leaderships, and also, the new elite now, which is as a result 
of what the Chairman mentioned that the Americans encountered 
with Afghanistan.
    And they're all now around the table to negotiate a roadmap 
where they can have their differences, their different 
priorities and background but they can live in a peaceful 
environment in Afghanistan and search and agree to a formula.
    Mr. Grothman. How many American soldiers passed away last 
year in Afghanistan?
    Mr. Helvey. Thank you for that question. The data has it as 
17 U.S. military personnel passed away under hostile actions in 
20----
    Mr. Grothman. What if you were to go back three or four 
years?
    Mr. Helvey. In 2019, the numbers were slightly elevated as 
violence had increased as the Taliban was posturing. But in 
recent years, the numbers were, in 2018, 13 service personnel 
were killed; in 2017, there was 11. In 2016, there were nine. 
But since the February 29 agreement was signed, there have been 
no U.S. service personnel killed in Afghanistan.
    Mr. Grothman. Let me have you repeat that again. That's one 
of those things as you almost--if I repeat it back home, people 
won't even believe the numbers. Can you say that again?
    Mr. Helvey. Zero U.S. service personnel have been killed 
since February 29 when we signed agreement with the Taliban.
    Mr. Grothman. Wow, so in the last seven months, no 
Americans have been killed in Afghanistan, right? That's what 
you're saying, seven months without any--that's a pretty 
incredible job you guys are doing over there.
    OK. I think there are people who feel that you have got to 
hold some troops over there. It's important to hold some troops 
over there. But there are obviously people who feel, unless we 
kind of change some of the gender differences over there that, 
you know, we ought to maybe be a little bit--get more involved 
there. Are there any other countries around the world that if 
we begin to go down this path of America must get involved 
until they straighten things out, that you can imagine that 
maybe we also would have to get involved in, if that's the 
standard?
    Mr. Khalilzad. Well, we have very many instruments in our 
toolbox, and we stand proudly for the value that we had at our 
universal values, but different instruments come to be brought 
to bear. And on when there is a threat to the national 
security, the armed forces have their role and responsibility.
    Mr. Grothman. I am under the impression, for example, 
Pakistan will be a country that, you know, forced marriages, 
that sort of thing, not unusual, honor killings, right?
    Mr. Khalilzad. Yes. We, obviously, that is inconsistent and 
we, with our values, and we oppose it, but we don't send the 
armed forces to enforce that change. We use economic leverage, 
we need diplomatic leverage, political relations, assistance 
programs to shape behavior. And I think we will continue to 
have leverage in Afghanistan, and we would use that leverage to 
make sure that our values are respected, and to the maximum 
extent possible.
    Mr. Grothman. We have done that a lot already. It's a great 
thing. Yes, I agree with my subcommittee Chairman here. We have 
made a lot of progress, haven't we?
    Mr. Khalilzad. Historic progress.
    Mr. Grothman. And because the United States was there, 
right?
    Mr. Khalilzad. Afghans are living longer because of our 
presence. They are living longer, they are healthier than they 
were--although, still there is a long way to go. More Afghans 
are--have access to education. More Afghans have access to 
telephones to communicating, and networking with each other and 
with the rest of the world. It is a different country than it 
was in 2001. And I keep telling them, when I talk with the 
Taliban, that this is not their father's Afghanistan, this is 
different Afghanistan, and they need to adjust and accommodate 
that change.
    Mr. Grothman. No, they're very nice, I just found something 
else here, and I will tell you, you know in the 20 years since 
we've been there, the population of Afghanistan has almost 
doubled? Did you know that? It's kind of amazing. OK.
    Mr. Lynch. The gentleman yields. The Chair now recognizes 
the distinguished Chair of the full Committee on Oversight, the 
gentlewoman from New York, for five minutes of questions.
    Mrs. Maloney. Thank you very much, and welcome to our 
panelists. Thank you very much, Mr. Chairman, for your 
determination to hold this hearing, and recognizing the 
responsibility of Congress to conduct oversight of the war in 
Afghanistan. Thank you, too, for your very sharp pencil 
pointing at how women and girls are treated. We know that when 
women succeed, nations succeed. And nations that respect their 
women and protect them have less violence, less terrorism, and 
it is an investment for peace in the world to advance the 
rights of women.
    Mr. Ambassador, as a New Yorker, I am painfully aware of 9/
11, where so many people were innocently killed in New York and 
the Pentagon and on Flight 93, going straight to our Capitol. 
Americans were just killed for being Americans in peaceful 
areas. And I remember the tapes, the advertisements, the 
propaganda coming out of Afghanistan from Osama bin Laden, and 
others: Come to Afghanistan. We'll train you to go out and kill 
Americans. This is where we plotted it. It's so easy. We're 
here freely living. We're training. Here are our training 
places.
    We went into Afghanistan to make sure that they would not 
be training people to kill our allies and Americans and come 
back at us. Yet, I don't see anything in your agreement on 
February 29 that really makes sure that this does not happen 
again. And, in fact, over the weekend, the Former National 
Security Adviser McMaster said, and I quote, ``Terrorist 
organizations who pose a threat to us are stronger now than 
they were on September 10, 2001.''
    So, I am concerned about the withdrawal of U.S. forces, 
will it leave a power vacuum that al-Qaida and other terrorist 
groups can exploit again to plot attacks against Americans and 
our allies? And your response?
    Mr. Khalilzad. Well, first, it's great to see you.
    Mrs. Maloney. Thank you, Ambassador.
    Mr. Khalilzad. And, of course, I share with you, I was in 
the White House when 9/11 happened. I remember that very 
vividly, and it affected my own life and the trajectory of my 
personal circumstances. So--and what you described the 
situation during that time is exactly right. But I respectfully 
disagree to say the terrorists in Afghanistan, in particular, 
are stronger today, al-Qaida, than they were at that time. And 
we did discuss that in another setting in detail, and I think 
you should ask the intelligence community to brief you on that.
    With regard to going forward, the agreement with the 
Taliban, they have made commitments not to allow the kind of 
things that you said that were taking place at that time. No 
training, no fundraising.
    Mrs. Maloney. Mr. Ambassador, my time is almost up, and I 
would love more of a conversation in writing on how we can 
enforce and make sure any time there's any activity, we can 
come back in, or maybe we should stay until there's more 
security there.
    But I do want to followup on the Chairman's questioning on 
women. In 2017, in a bipartisan way, we passed a very strong 
bill, the Women Peace and Security Act, that recognize when 
rights and status of women are protected, societies are less 
violent, there's less terrorism.
    Yet, in the agreement signed earlier, there was nothing in 
it to protect the rights of Afghan women and girls, and we know 
that they were murdered for going to school, they were not 
allowed to learn, they could not work, they could not protect 
themselves in any way. And as our chief negotiator, you have 
said that the talks have to be Afghan-led, and that's true. But 
we have leverage as the United States to stand up for the 
protection of women and girls. And I'd like, in your remaining 
time, to tell us exactly how you are going to protect them.
    I also ask unanimous consent to place into the record a 
series of questions to be answered in writing as we followup on 
these negotiations. This is very, very important to our 
country----
    Mr. Lynch. Without objection, so ordered.
    Mrs. Maloney [continuing]. And, I believe, world peace. So, 
what was specifically in there to protect women and girls and 
to protect us from being attacked again?
    Mr. Khalilzad. Well, the protection regarding security, as 
I said, there are specific commitments by the Taliban.
    Mrs. Maloney. But is there enforcement? What if they do not 
do them? How do we----
    Mr. Khalilzad. We are free from the commitment that we have 
made. That's why I say it is condition-based. That means they 
don't deliver on the commitment, we don't have to withdraw 
forces. We adjust our force posture. Those are decisions that 
our management will have to make. But this is not an agreement 
that is based on trust. It is an agreement that is a package. 
What they do and what we do, and the two are linked with each 
other.
    With regard to women's rights, the Afghan negotiations, the 
peace negotiations are not finished yet. We have had the phase 
dealing with terrorism and forces completed, but that has 
opened the door to two other issues, the future of Afghanistan 
and complete and permanent cease-fire. And I want to promise 
you, I assure you, I know of your strong commitment and 
feelings in this regard, and that reflects our values and my 
instructions that we will work very hard to make sure that the 
gains that have been made are built upon.
    And we will press all sides in this regard, and we will 
have the leverage of future relations and assistance in 
addition to what is going on currently to advance the agenda 
that we have on our values and that I share. And you have been 
a champion, and I salute you for the work that you have done in 
this regard.
    Mr. Lynch. The gentlelady yields back.
    Mrs. Maloney. I yield back.
    Mr. Lynch. The Chair now recognizes the gentlewoman from 
North Carolina, Ms. Foxx, for five minutes of questions.
    Ms. Foxx. Thank you, Mr. Chairman, and I may use up that 
extra time you took assuming my colleague didn't.
    You know, I find it very interesting--I want to thank our 
witnesses first of all for being here. And I find it really, 
really interesting that our colleagues are here today 
castigating the work that's being done by the Trump 
administration to bring peace to Afghanistan, and focusing so 
much on the role of women.
    I have been a fighter for women's rights and women's 
equality all of my life, but I find it really interesting that 
the hypocrisy comes out. I mean, we hear about the fight for 
women in Afghanistan. I remember very well when President Obama 
was President, the issue of Boko Haram, and the women being 
stolen away by Boko Haram. And every Wednesday for several 
years, we were asked to wear red on behalf of Boko Haram. Lots 
of statements made by the Obama Administration about getting 
these women back. Not a single one of those women was rescued 
under the Obama Administration. Nothing was done by the Obama 
Administration to advance the cause of women.
    And yet, here we are raising this issue suddenly when the 
President is having such success in Afghanistan, suddenly this 
is being held up, there is a gold standard being held up here 
that was never held up under the Obama Administration.
    So, I want to thank you both for the success that's being 
had in Afghanistan. We all want to see peace around the world. 
We want to see the senseless war ended. And I think it's very 
encouraging that since the agreement was signed, we have had no 
deaths of U.S. soldiers. We don't want any deaths of any 
soldiers under any administration.
    Now, Mr. Ambassador, I'll get to my questions. You have 
said that a political solution, including a peace agreement 
among Afghans, is the only realistic option at the present 
time. I personally agree with you. Do you believe such a 
solution is achievable given that the Afghan Government and the 
Taliban are starting off negotiations very far apart?
    Mr. Khalilzad. Well, thank you, ma'am, for what you said. I 
want to also say that women also want peace. They want the war 
to end. I know many Afghan mothers who have lost their children 
to this war that has been going on for 40-plus years. So, we 
should not forget that.
    As to the plausibility, likelihood of agreement between the 
government and the Taliban, I think they're under a lot of 
pressure from the people that he must come to an agreement. 
This Afghan negotiation, the search for peace is very popular, 
politically, among the Afghan people. I have seen a recent poll 
that shows the support, perhaps more than 80 percent of the 
population.
    But you are right, there is a big gap between the two 
sides, and there will be difficulties and challenges, no doubt. 
But I believe that they have a serious opportunity, a real 
opportunity not present in the last 40 years, and thanks to the 
American diplomacy and the sacrifices of the men and women of 
our military, that this opportunity has been made available to 
them.
    We will help them if they need that help to come together, 
but ultimately it is their decision, it's their responsibility. 
But difficult, yes, but possible, sure. Vital that they do for 
their own people and for their own country.
    Ms. Foxx. Well, you know, there's a saying in this country, 
which I assume is probably true in any country in the world, If 
mama's not happy, then nobody's happy. And I agree with you, I 
don't think there are any more people, no one has a more vested 
interest in the safety of children than mothers. And I have no 
doubt that the mothers in Afghanistan are not happy with the 
loss of their children.
    Would you talk a little bit more about the status of the 
troop draw-down based upon the joint agreement. And do you 
believe--and the current trajectory, we'll continue to draw 
down troops, or will the timeline need to be revised?
    Mr. Khalilzad. I will ask David if he would comment on 
that.
    Ms. Foxx. Thank you.
    Mr. Helvey. Thank you for that question, ma'am. As I 
mentioned in my opening statement, since the signing of the 
agreement on February 29, we have reduced our forces per the 
terms of that agreement to 8,600 forces, and we have continued 
that reduction based on guidance and direction from the 
President and the Secretary.
    Right now, based on the conditions, the plan is to achieve 
somewhere between 4,000 and 5,000 U.S. service personnel in 
Afghanistan by the end of November 2020. We have received no 
orders--the Secretary has issued no orders to reduce below that 
level at that time. Obviously, the terms of the agreement 
specified zero by May 2021, but this is fundamentally, to use 
words that Ambassador Khalilzad has said, this is fundamentally 
conditioned-based.
    So, we will be watching very carefully to assess the 
conditions, Taliban's compliance with its term--with the terms 
of its agreement, and that will be used to inform decisions on 
further and future withdrawals.
    We can continue to perform the core elements of primary 
missions which is train, advise, and assist our Afghan partners 
in the counterterrorism mission. We are also providing for the 
security of the forces that are there within that number, based 
on the conditions that we currently see.
    Ms. Foxx. And my assumption is, again, that future actions 
are based, as you said, on the conditions on the ground, and 
the fact that we've had no deaths since the agreement was 
signed is a very hopeful sign. And as long as things are going 
in the right direction, then we're very hopeful that we'll be 
able to withdraw on schedule. That's what I'm hearing you say, 
and I know we all pray that that is going to be the situation.
    And with that, I yield back, Mr. Chairman.
    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentleman from Vermont, who 
has had many trips to Afghanistan, has been active on this 
issue for a very long time. We now recognize for five minutes 
Mr. Welch.
    Mr. Welch. Thank you very much, Chairman Lynch. And thank 
you, Ambassador. Really appreciate your presence here.
    The question I ask is, if the Taliban ultimately prevails 
and is in charge in Afghanistan, what is the U.S. position or 
what is your recommendation with respect to providing economic 
assistance to that impoverished country; whereas I understand 
it, 90 percent of people are below the poverty line living on 
$2 a day?
    Mr. Khalilzad. Thank you, sir. I don't accept the 
proposition, just for the , that the Taliban will prevail. 
We're in a stalemate situation.
    Mr. Welch. Let me interrupt here. Let's stay on that. I 
mean, first of all, I applaud your work, and I believe it is 
time for the United States to be out of Afghanistan, but I also 
think it's important for us to be clear-eyed about this.
    Mr. Khalilzad. Absolutely.
    Mr. Welch. As I understand it, the government that we've 
had in Afghanistan that we've supported has never had popular 
support, and the Taliban have refused to have direct 
negotiations with the elected government, and it's only having 
conversations with the government, the quote, ``elected 
government,'' as well as opposition leaders. Is that true?
    Mr. Khalilzad. Yes. Now they're negotiating, the Talibs, 
and that's an achievement of this effort that the government-
led delegation, that includes political forces and inclusive, 
includes women, civil society, the Taliban and what said they 
wouldn't sit with the government, now they are sitting across 
the table with a government-led delegation.
    Mr. Welch. Here's where I want us to be clear-eyed. The 
elected government in Afghanistan has had one backer, and 
that's essentially the United States. We propped them up with 
troop support and with a trillion dollars of expenditures and 
hundreds of billions of dollars of aid, most of which has gone 
missing.
    It is not unreasonable to expect that the Taliban that's 
managed to sustain itself is ultimately going to be in charge 
in Afghanistan. My question to you is, how does--what's the 
U.S. policy toward a government that may well be Taliban led?
    Mr. Khalilzad. Well, restating without repeating what I 
said about my assumption, but as far as assistance that 
Afghanistan needs, through the Taliban, we have legal and 
policy issues that preclude that at the present time. So, if 
the Taliban become part of a future government, what we would 
do is an issue for the United States, for Congress, and the 
executive branch should decide. Policy currently is we are not 
in a position to provide assistance to Taliban.
    Mr. Welch. Right. This second question is, in the 
negotiations, was there any discussion about the fact that 
throughout our time, throughout our time in Afghanistan, 
Pakistan in the tribal territories were used as safe havens, 
and what arrangements are made to diminish or eliminate the 
threat that comes to the United States through the continuation 
of the Pakistani safe havens?
    Mr. Khalilzad. Thank you for that important question. Part 
of the challenge, as you alluded to, is regional environment 
and Pakistan, in particular. The Pakistani leaders have been 
helpful for the effort that I have been making to encourage a 
political settlement. We also, as part of this effort with help 
from our allies, are looking at an agreement between 
Afghanistan and Pakistan that neither side's territory would be 
used against the other. And we're hoping that by the time that 
these other negotiations are over, we could also achieve as a 
success in that regard.
    I think that one benefit of peace in Afghanistan is 
connectivity and trade and economic development in the region, 
and General Bajwa, said, the leader of the military forces in 
Pakistan, the nations do not develop; regions develop. And one 
potential implication and positive one is a greater economic 
trade and cooperation, and that links Pakistan/Afghanistan to 
central Asia for the benefit of all. Your point is obviously 
well taken.
    Mr. Welch. Thank you very much.
    My time is up, Mr. Chairman. I applaud the success in 
getting some kind of peace arrangement, but I think we've got 
to be clear-eyed that the likelihood is the Taliban will be in 
charge, that country will continue to be very impoverished, and 
the instability in that region continues.
    Thank you.
    Mr. Lynch. Thank you. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Cloud, for five minutes.
    Mr. Cloud. Thank you, Chairman.
    And thank you, Ambassador and Secretary, for being here. 
Appreciate the work. I think we all acknowledge the 
difficulties of working in that region, a region where we in 
America probably have more of a centralized national identity 
of Afghanistan than those actually living in Afghanistan. Very 
fractured, and then you're dealing with, of course, Taliban and 
the Afghan Government, which have kind of conflicting goals. 
It's been said that this is the longest war a number of times 
in this hearing, which--in our U.S. history.
    Secretary, could you speak to the authorizations for our 
presence in Afghanistan? What authorities do we have to be 
there, is my question?
    Mr. Helvey. It's my understanding that we're there under 
the terms of the authorization, the use of military force post-
911. And the mission that we have in Afghanistan is to conduct 
counterterrorism and then supporting that, as do our NATO 
mission, is for train, advise, and assist of our Afghan 
partners.
    Mr. Cloud. Right. So, our primary role is counterterrorism?
    Mr. Helvey. The U.S. role primary mission is 
counterterrorism with the train, advise, and assist.
    Mr. Cloud. Right. OK. I ask this because, you know, does 
humanitarian abuses--I mean, our founding documents talk about 
inalienable rights, but does humanitarian abuses of any nation 
give us authority to occupy or to invade a nation?
    Mr. Helvey. I mean, as Ambassador Khalilzad said, look, we 
want to live our values and our principles, and we have a 
number of tools that we can use to accomplish that and to 
advance those goals, advance those ideals.
    Mr. Cloud. Right.
    Mr. Helvey. Using military force is one of the tools that 
we have, but that's not the only tool that we have, and that's 
typically not the tool that we use to pursue those types of 
values and principles. I mean, there's economic tools, 
diplomatic tools, other aspects of our government and our 
country that we can use to advance those.
    The mission that we have in Afghanistan, the reason why our 
military force is there, is focused on, as I've said before, 
ensuring that Afghanistan never again is a safe haven for 
terrorists that can strike the United States or our allies.
    Mr. Cloud. Right. I think we all hope for the best that in 
a negotiated peace we would be able to have the best settlement 
that would respect the human rights of all people through 
diplomatic channels. But I do think it's important that we 
recognize that the President was right to prioritize the 
drawdown of troops, the removal of troops from Afghanistan, 
while protecting the counterterrorism efforts there. You know, 
recognizing that threats have changed over the last 20 years 
and notably, of course, with China, even when we talk about 
human rights abuses, we can talk about what's going on through 
the international organized criminal activity that happens even 
through our border, and the women and children that are 
affected in our communities because of that. So, it's important 
that we prioritize that.
    Could you touch on, Ambassador, some of the notable 
successes and yet what are a couple of the notable challenges 
that remain in actually seeing the results of a negotiated 
peace?
    Mr. Khalilzad. Well, the successes are first in terms of 
Afghans is a start of peace negotiations between the government 
and the Taliban, which I have said is unprecedented, given the 
long war. And from our point of view, the successes, why we 
have the right to defend the Afghan Security Forces, their 
attack, but the Taliban have adhered to the commitment largely 
not to attack U.S. personnel and the U.S. Forces. And that's 
allowed us to be able to carry out the mission that we have, 
the core mission, that hasn't changed, but to do it at much 
lower numbers.
    Mr. Cloud. And you mentioned no U.S. casualties.
    Mr. Khalilzad. There is fewer U.S. casualties, including 
wounded, compared to the same period, if you compare it to last 
year or the same period of time. But I think that if we 
succeed--and I'm not assuming necessarily that we will. I mean, 
this is unpredictable, complicated, difficult circumstances--
then we would have helped Afghanistan achieve the peace that 
they are yearning for the people, but at the same time, lower 
very dramatically the cost to ourselves. And hopefully--and 
that will be the test that there will be no terrorism from 
Afghanistan threatening the United States.
    These are all objectives and we have work to do to achieve 
those goals, and there will be challenges and set backs, but I 
see among the alternative that we have that what we're doing is 
the best option for the United States and for Afghanistan, I 
might say so.
    Mr. Cloud. I had one more question. We know Iran and Russia 
are at work in the region trying to undermine our efforts, of 
course. How much of that is motivated by anti-American designs 
or how much of it is regional--trying to expand regional 
influence even against each other?
    Mr. Khalilzad. Well, for Iran, I believe, it's largely 
anti-American. And they would like to keep us entangled there 
and under pressure, suffering costs of different kinds. With 
regard to Russia, I believe where there is an American 
dimension, but they also have concerns like us about ISIS, 
which is a threat to them and their policy support for some 
elements is based on that, primarily based on that concern.
    But they have been largely supportive of our diplomacy, as 
indicated in the Security Council or in the discussions that 
they have had with the Taliban encouraging them to agree to a 
cease-fire or reduction of violence and negotiating with the 
government. So, Iran is largely negative. Russia is mixed, in 
my view.
    Mr. Cloud. Thank you very much.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Rouda, for five minutes.
    Mr. Rouda. Thank you, Mr. Chairman, and thank you for 
bringing us together for this hearing. And thank you to the 
witnesses as well.
    By now, we are all very familiar with The New York Times 
story reporting that Russia offered bounties to the Taliban to 
kill U.S. soldiers. And we're not in a classified setting, so I 
won't ask anything about specific intelligence underlying this 
reporting, but like most Americans, I'm very concerned that 
Russia and other outside actors may be providing various levels 
of support to the Taliban and concerns that this administration 
has not stood up to Russian President Putin on behalf of our 
troops that are deployed overseas.
    So, Mr. Helvey, at the unclassified level, can you speak to 
the support outside actors such as Russia and Iran are 
providing to Taliban and other forces within Afghanistan?
    Mr. Helvey. Thank you for that question. We are aware and 
we know that there are outside actors, including Russia and 
Iran, but also there's others that are engaged in malign 
influence in Afghanistan. Some of this has been through the 
provision of weapons funding and other types of support. 
Obviously, with respect to the specific question, as we are 
always looking at threats to our forces and we put the 
protection of those forces as among the top priorities that we 
have, as any commander would have. And since those reports have 
come out regarding Russian programs, we've been looking 
specifically to identify corroborating information. We've not 
yet found it, but we continue to look for that because we want 
to understand the threats and to be able to address them.
    Mr. Rouda. And as we've done the troop reduction and the 
anticipated troop reduction, have you seen an increase in that 
influence by these outside entities, these foreign countries?
    Mr. Helvey. We see a continued interest, a continued 
presence, and a continued effort to gain influence. I wouldn't 
be able to say if it's increased or decreased, but particularly 
with respect to lethal attacks or violence against U.S. 
military personnel as we've indicated before that we've had no 
U.S. combat deaths since we signed the February 29 peace deal 
with the Taliban.
    Mr. Rouda. Right. But it's not just U.S. personnel; it's 
also Afghanis, and also, support civilians for the U.S. 
military. But let me ask you, what do you see as the primary 
objective of Russia, as an example, in using this type of 
influence within Afghanistan?
    Mr. Helvey. As the Ambassador mentioned, yes, I think it 
appears that Russia's primary interests is related to expanding 
its influence in an area that it has historically had influence 
in. Some of it is related to its concerns over ISIS-K, ISIS 
Khorasan counterterrorism. Some of it is also related to 
frustrating the United States.
    So, I think, you know, Russia's motivated by a number of 
interests in Afghanistan, and we've been watching that very 
carefully.
    Mr. Rouda. And I believe it was recently that H.R. 
McMaster, the former national security advisor, might have been 
on 60 Minutes, but he was talking about the alumni, for a lack 
of a better term, of ISIS and al-Qaida entering the country as 
foreign fighters. And can you talk a little bit about--and he 
said this is a much worse situation than what we saw 
previously. Can you talk about the influx of these foreign 
fighters and what that can mean to the instability in the 
region?
    Mr. Helvey. We are obviously watching, monitoring very 
carefully and vigorously pursuing our counterterrorism 
objectives. I'm not familiar with the comments that General 
McMaster made about that, but what I do know is that al-Qaida 
and ISIS Khorasan have been under tremendous amount of pressure 
in Afghanistan. That's one of the areas that we are very much 
focused in degrading and preventing those terrorist groups, or 
any others, from operating in Afghanistan from being able to 
use Afghanistan as a safe haven to plan, plot, and execute 
attacks against the United States.
    Mr. Rouda. And that leads me to my next question. I would 
actually like you to elaborate a little bit more on that, while 
we have--our counterterrorism efforts have had successes in 
Afghanistan, there's still aspirations within those terrorist 
organizations within Afghanistan. Can you talk about 
capabilities and aspirations by them?
    Mr. Helvey. I think it is clear that ISIS-K and al-Qaida 
and al-Qaida in the Indian subcontinent do have aspirations, 
and that's one of the things why we want to be able to maintain 
this pressure on the groups today, but also going back to the 
negotiations that we had with the Taliban and the commitments 
that the Taliban undertook with us. We are looking for making 
sure that the Taliban lives up to its obligations and its 
commitments to us with respect to counterterrorism. So far, 
they are not fully compliant, so we have work to be done there. 
I think we know that. The Taliban knows it.
    And, ultimately, what we want to be able to see in 
Afghanistan is an enduring peace. And in that type of 
environment, the terrorist organizations, terrorist groups will 
not be able to operate, will not be able to plan, will not be 
present. So, that's the focus, and we're looking to get the 
Taliban to adhere to its commitments.
    Mr. Rouda. Thank you, Mr. Helvey. Thank you, Mr. 
Ambassador.
    And I yield back.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ambassador, if you don't mind, please explain to those 
watching and to this committee, describe the economic 
conditions in Afghanistan, please, for a citizen, a resident of 
Afghanistan, describe the economic conditions.
    Mr. Khalilzad. My impression is that Afghanistan is a very 
poor country, of course, and the conditions have improved 
significantly compared to prior to U.S. engagement. As I said 
before, healthcare has improved, longevity has improved, per 
capita income has improved, but that's from a very, very low 
base in a country still extremely poor. Unemployment is high 
and income is unevenly distributed, but there is a very 
substantial part of the population. The President of 
Afghanistan in one of his statements recently said 90 percent 
of the population lived in poverty. That was his statement, 
which is worse than it has been sometimes in the past, but so 
it's a very, very poor country; dependent a lot on foreign 
assistance, especially American assistance, in terms of paying 
salaries and meeting its obligations.
    Mr. Higgins. So, that assessment is reflective of my 
understanding and our research. And I think it's just important 
for the Americans watching to understand just how economically 
challenged the people of Afghanistan are and, therefore, the 
importance of our current negotiations seeking a lasting peace 
and stability within the Nation to allow economic prosperity.
    It's in my opinion, and I believe my colleagues on both 
sides of the aisle would agree, that economic stability can 
only be achieved if there's some stabilization regarding the 
elimination of conflicts, and therein lies the Taliban.
    So, Ambassador, do you believe that the Taliban can be 
trusted in negotiations to eliminate terrorist training 
facilities and the tendency toward allowing terrorist training 
facilities or encouraging and developing terror training 
facilities within Afghanistan? Do you think that there's a 
chance that our peace negotiations can establish an environment 
within Afghanistan that will not afford the opportunity for 
terrorists to train and from which to perhaps launch attacks 
against the United States?
    Mr. Khalilzad. On the first point you made, I agree with 
you. And with peace and participation by all key forces in the 
country, there is an opportunity for Afghanistan to have 
economic development. They have mineral resources. They have a 
good geography in one way in terms of being a land bridge 
between Central Asia, which has vast resources and South Asia 
where the population and the markets. And, therefore, we're 
looking at with other donors and assistance, investment, trade 
to stabilize or consolidate any peace agreement.
    On your second point, it's not a question of trust, 
Congressman; it is a question of making it in their interest 
not to allow that. And that is, the Taliban want to be accepted 
as a legitimate partner. They want to receive assistance and to 
have good relations, and we have to make those things that they 
need conditional and be continuously monitoring and reacting so 
that they deliver on the commitments that they have made.
    They say they have learned the lesson from the past and 
that they will not allow terrorist to use the territory against 
us. And we've taken some steps and they've taken some steps, 
but we need to make it in their interest not to enter--
necessarily rely on trusting them.
    Mr. Higgins. Thank you for that answer.
    Mr. Chairman, my time is expired. I yield.
    Mr. Lynch. The gentleman yields.
    The Chair now recognizes the gentlewoman from Florida, Ms. 
Wasserman Schultz, for five minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Ambassador and Mr. Secretary, while we're right to debate 
how we responsibly withdraw our troops from Afghanistan, I did 
as a senior member of the Appropriations Committee, and so I'm 
also concerned about the future of our continued nonmilitary 
and civilian assistance to the Afghan Government.
    Since 2001, the U.S. has committed hundreds of billions of 
taxpayer dollars to support Afghan reconstruction, which has 
been critical to support the livelihoods of the Afghan people 
and especially Afghan women and girls. Now, I share the 
Chairman's concerns, both Chairwoman Maloney and Chairman 
Lynch, but the U.S.-Taliban agreement reached in February does 
not explicitly protect the rights and status of Afghan women 
and girls.
    So, Ambassador Khalilzad, will the State Department and 
USAID continue to provide gender-related programming in 
Afghanistan regardless of what happens during intra-Afghan 
negotiations?
    Mr. Khalilzad. Well, we are committed to support the Afghan 
Government and both economic assistance and humanitarian 
assistance to Afghanistan, and that's where we are right now.
    Ms. Wasserman Schultz. Right. But I'm specifically asking 
you, will the U.S. continue to provide gender-related 
programming in Afghanistan regardless of what happens during 
intra-Afghan negotiations?
    I'm concerned about the--what I've seen as a reduction in 
the prioritization of the continued rights and progress of 
Afghan women and girls. I mean, you're the chief negotiator in 
Afghanistan. Making sure that--are you having conversations 
with Secretary Pompeo, Administrator Barsa, Director 
Richardson, about continuing the absolute necessity to continue 
these vital programs?
    Mr. Khalilzad. We have said--I've been instructed to say 
and the Secretary himself has said, while we want to reduce the 
military costs through these negotiations to achieve peace for 
the Afghans and our own security, we are committed for the long 
term in terms of Afghanistan, providing assistance to 
Afghanistan, and that we anticipate that given that we want the 
long-term partnership to include assistance, including on 
issues that you have described. That has been a general 
directive that I'm operating under.
    Ms. Wasserman Schultz. Is it a priority of the 
administration to include in the negotiations and the ongoing 
assistance that we provide to the Afghan people that there is 
continued advancement and improvement of the rights of Afghan 
women and girls? I'm not hearing you even say the word ``women 
and girls.''
    Mr. Khalilzad. The rights of women and girls and 
minorities, indeed of all Afghans, but especially those that 
you mentioned, is a high priority of the United States and that 
will remain so.
    Ms. Wasserman Schultz. OK. What about other foreign 
assistance, development, and reconstruction programs? Should 
U.S. assistance be sustained regardless of the U.S.-Taliban 
agreement or ongoing intra-Afghan talk?
    In March 2020, Secretary Pompeo announced that the U.S. 
would withhold a billion dollars in assistance to Afghanistan 
due to political impasse between leaders in the Afghan 
Government. I'd like to know where we are in ensuring that we 
understand what the criteria are for continuing that 
assistance.
    Mr. Khalilzad. On future assistance, and you also referred 
to the negotiations, of course, it depends what happens in 
these negotiations and what decisions the Afghans make. And our 
decisions regarding assistance will be influenced by the 
decisions that they make. So, while we would like to have long-
term partnership and assistance program to the Afghans, but 
that will depend obviously on implementation on what the 
agreement is in terms of our interests and our values, and 
we'll decide based on that.
    Ms. Wasserman Schultz. OK. In June, Ambassador, you told 
reporters, quote: ``I think the money is cut and the 
implementation is with the Pentagon.'' But the Secretary, 
Secretary Pompeo said the political impasse was, quote, 
resolved, implying that the reduction in U.S. assistance would 
not take place.
    So, Mr. Helvey, did DOD suspend a billion dollars in 
assistance from Afghanistan, which I would assume would have 
been without congressional authorization or notification, or do 
you still plan to?
    Mr. Helvey. Thank you for that question, ma'am. The 
Secretary is still making a decision on how he'd like to move 
forward with a reduction in ASF, Afghan Security Forces, funds 
for Fiscal Year 2020 per the announcement that Secretary Pompeo 
made. But if I could just offer that, you know, support for the 
Afghan National Defense and Security Forces through the Afghan 
Security Forces fund, or ASF, is now perhaps more important 
than ever.
    You know, we believe that a strong and capable ANDSF 
focused on combating terrorist threats in defending the Afghan 
people is going to be our best chance supporting and defending 
U.S. interests.
    Ms. Wasserman Schultz. Thank you. I yield back the balance 
of my time.
    Mr. Lynch. The gentlewoman yields.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Green, for five minutes.
    Mr. Green, you may need to unmute. I know you're out there.
    The Chair now--while we're trying to find Mr.--while we're 
trying to find the communications with Mr. Green, we're going 
to call on Ms. Kelly from Illinois for five minutes.
    Ms. Kelly. Thank you. Trying to get to my questions. Thank 
you, Mr. Chair.
    A few months after taking office, President Trump outlined 
a new strategy for the United States and Afghanistan. During an 
August 2017 speech, he stated: Conditions on the ground, not 
arbitrary timetables, will guide our strategy from now on. 
America's enemies must never know our plans or believe they can 
wait us out.
    But three years later, Trump seems to be doing exactly the 
opposite of what he promised to do.
    Under the February 29 peace agreement, the United States 
agreed to reduce the number of troops in Afghanistan from about 
13,000 to 8,600 by mid-July 2020, followed by complete 
withdrawal by May 2021. And despite repeated administration 
assurances that our withdrawal from Afghanistan is, quote, 
conditions based, President Trump has allegedly, and I quote: 
Repeatedly voiced a desire to leave Afghanistan sooner than the 
timetable laid out in the February 29 peace agreement.
    The facts on the ground seem to bear that out. In mid-June, 
CENTCOM Commander General McKenzie announced that the United 
States had already met its commitment to reduce U.S. troop 
levels in Afghanistan to 8,600, almost a month ahead of time. 
General McKenzie also recently told Voice of America that the 
U.S. would be down to about 4,500 troops in Afghanistan by late 
October, which is consistent with the President's stated 
aspirations to have fewer than 5,000 troops in Afghanistan by 
the 2020 election.
    Ambassador, what incentive do the Taliban have to meet 
their commitments under our agreement with them if the U.S. is 
withdrawing forces even faster than the timeline detailed in 
that same agreement?
    Mr. Khalilzad. Thank you, Congresswoman. I want to say that 
the agreement that I have negotiated to adjust forces downward 
depending on conditions. And although there have been 
reductions that you describe, that those reductions has not 
meant that we cannot do the mission that our forces have. But I 
believe that once we get to 4,500 or so, as you said, between 
4,000 to 5,000, we would have to evaluate before we reduce 
further, based on the agreement, whether the conditions are 
such that further reduction will not undermine our ability to 
carry out the mission that the United States is committed to in 
Afghanistan.
    I believe the Taliban would like us to leave and they think 
we want to leave. And I've said, true, we would like to leave, 
but departure depends on the conditions. If they can deliver on 
the commitment they have made, then we would like to withdraw 
our forces and bring the troops home. And if we are to stick to 
that agreement, we need to implement condition-based adjustment 
downward in forces or adjustment in forces, and I believe we 
are committed to the terms of the agreement.
    Ms. Kelly. Has President Trump or anyone in the White House 
ever told you that U.S. force levels in Afghanistan should be 
reduced to a certain level by November 2020 election? And what 
about Secretary Pompeo? And if they have discussed this with 
you, what number did they say?
    Mr. Khalilzad. Well, as you said, the CENTCOM Commander has 
said what the forces would be by November or in November, which 
is between 4,000 to 5,000. But I know, I would like to ask 
David to comment further, that our Defense Department, our 
military leaders believe that with those forces, the 4,500, we 
will be able, given the conditions present, able to do the 
mission, which is go do counterterrorism and to, with allies, 
help the Afghan forces.
    Ms. Kelly. And, Mr. Helvey, has Secretary of Defense Esper 
ever told you that U.S. force levels in Afghanistan should be 
reduced to a certain level by November 2020 election?
    Mr. Helvey. Ma'am, what the Secretary of Defense has said 
to me and publicly is, you know, we're looking to get to 
between 4,000 and 5,000 troops in Afghanistan by the end of 
November 2020.
    Ms. Kelly. OK. Thank you.
    My time's almost up. I yield back.
    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for five minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing. I just want to share that I share 
your view that while the start of the Afghan negotiations is an 
important step in ending decades of conflict, we cannot assume 
that it will inevitably lead to peace.
    With the U.S. withdrawing forces from Afghanistan, we have 
lost much of our leverage against the Taliban to hold them to 
their commitments, especially their promise to sever ties with 
the terrorist organizations and to continue negotiations with 
the Afghan Government. In a May 2020 report, the U.N. Security 
Council found, quote: The Taliban regularly consulted with al-
Qaida during negotiations with the United States and offered 
guarantees that it would honor their historical ties. Al-Qaida 
has reacted positively to the agreement with statements from 
its acolytes celebrating it as a victory for the Taliban cause 
and less for global militancy.
    And then in August, the lead inspector general for 
Operation Freedom's Sentinel released its quarterly report to 
Congress, which covers the periods of April 1 to June 30, 2020, 
several months after the U.S. agreement with the Taliban. And 
that report found that the Taliban continued a high tempo 
attack targeting the Afghan National Defense and Security 
Forces and maintained its ties with al-Qaida, conducting some 
attacks alongside members of al-Qaida's regional affiliate al-
Qaida in the Indian subcontinent.
    Ambassador, Ambassador Khalilzad, do the Taliban still 
maintain ties with al-Qaida?
    Mr. Khalilzad. First, Congressman, thank you. You stated 
that the intra-Afghan negotiations is a positive development. I 
agree with you. But that wouldn't have been possible without 
the agreement and without the condition-based adjustment in the 
force. This is a package.
    With regard to terrorism, al-Qaida, in this setting what I 
can say is that the Talibs have taken some steps based on the 
commitment that they have made, positive steps, but they have 
some distance still to go. And whether we go further down 
beyond that 4,500 will be contingent on them delivering on the 
commitments that they have made. So, we are in the middle of 
the process and the picture that is
    [inaudible] progress, but it's not completed. Neither has 
our force reduction----
    Ms. Plaskett. So, Ambassador----
    Mr. Khalilzad.--our withdrawal has not been completed, and 
the two things are very much alike.
    Ms. Plaskett. So, Ambassador, would you say that that 
means, sir--excuse me, does that then--would you then say that 
they still maintain some ties with al-Qaida? Is that what 
you're saying?
    Mr. Khalilzad. As I said before, in this setting what I can 
say is that they've taken some positive steps. We look for more 
steps before we are satisfied, and----
    Ms. Plaskett. So, more steps meaning----
    Mr. Khalilzad.--I believe that once we reach to 4,500, we 
would do an evaluation of ties and actions that they've taken 
and make decisions based on that.
    Ms. Plaskett. Thank you. So, the fact that they need to 
take more steps would lead me to conclude, sir, that you do, in 
fact, agree that there are still some ties with al-Qaida if 
more steps need to be taken. Are there benchmarks or indicators 
that the United States is using to monitor the extent to which 
the Taliban continue to maintain those relations with al-Qaida 
or with terrorist groups?
    Mr. Khalilzad. Yes. We are monitoring that very closely. We 
have an interagency jointly chaired by Defense and state 
monitoring compliance of Taliban compliance with regard to 
commitments they have made.
    Ms. Plaskett. Thank you. We all know--and thank you for 
your testimony--a lot is at stake here with the start of the 
intra-Afghan negotiations. If these discussions fall apart, the 
Afghan people will suffer and our homeland security could be at 
risk. While we all hope for a peaceful resolution to the 
conflict, what do you think will happen if negotiations between 
the Kabul Government and the Taliban do not succeed?
    Mr. Khalilzad. Well, we hope that they will succeed, and we 
will do all that we can to be helpful. This is a historic 
opportunity for Afghan leaders. The people are tired of war. 
They want an end to the war. We will protect our interest, of 
course, in all circumstances, but the Afghan people will suffer 
if there is no peace agreement.
    Ms. Plaskett. So, the Afghan people will suffer if there's 
no negotiation, if it's not successful. And as you have said, 
your government will do what's necessary to protect its 
interests?
    Mr. Khalilzad. I did.
    Ms. Plaskett. Thank you.
    Mr. Chair, I yield back.
    After almost two decades of war, it would be devastating if 
the Taliban were able to wrest control of Afghanistan from the 
Kabul Government and al-Qaida were able to regain the safe 
haven enjoyed prior to September 11.
    I yield back.
    Mr. Lynch. The gentlelady yields back.
    The Chair now recognizes the gentleman from Kentucky, Mr. 
Comer, for five minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    I want to thank you and the ranking member for holding this 
very important hearing. I don't think I need to remind anyone 
in here that public opinion on the war in Afghanistan is very 
strong with an overwhelming majority of Americans now favoring 
a withdrawal and an end to this very long war.
    I have to mention that I'm proud to represent Fort Campbell 
Military Base in Ft. Campbell, Kentucky. We've had a lot of 
brave women and men serve, currently serving in Afghanistan, 
have given their lives, have gotten injured for the cause, and 
I appreciate their service. I also represent many National 
Guard units in Kentucky that have had many forces in 
Afghanistan over the years.
    Ambassador, you mentioned success. We all want to see 
success in Afghanistan. What, sir, is your definition of 
success and when would that success be achieved?
    Mr. Khalilzad. Thank you, sir. Of course, long-term success 
is in Afghanistan the end state, which we want the country 
that's at peace within it and with the neighbors, that doesn't 
pose a threat to the United States or our allies, and respects 
the human rights of its citizens and that they end the conflict 
with each other and there is permanent cease-fire.
    But that end--getting to that end will be through stages. 
And right now, we are at the stage of start of the negotiations 
among Afghan in regard to the future of Afghanistan. And we 
have the commitments from both the government and the Taliban 
on terrorism-related issues to us. So, this is not an act that 
magically we get to the end point. It goes through process and 
stages and steps by all sides, and we are in a hopeful moment. 
There will be difficulties and challenges, as I said, but we 
are in a better place than we have ever been with regard to 
peace in Afghanistan in the last 40 years.
    So, that's something. That's something to be said about 
where we are, but agreement or success is not assured and there 
are spoilers. People who prefer the status quo to a peace 
agreement because personal wealth, access to money, access to 
power, these are all important considerations. So, difficulties 
are there, but I'm hopeful.
    Mr. Comer. Mr. Helvey, let me switch gears. And you 
mentioned, obviously, the goal is to ensure that terrorist 
cells cannot operate in Afghanistan, and I think that's a 
bipartisan goal. That's why we went there in the first place. 
My question is, is there a way to achieve that without having 
American troops on the ground?
    Mr. Helvey. Thank you for that question. And from our 
perspective, the mission that we have is to ensure that that 
doesn't happen. Now, we can do that in a couple of different 
ways. One, there are things that we do directly in Afghanistan, 
but I think an important part of this is the work that we're 
doing with our Afghan partners to buildup the capabilities of 
the Afghan National Defense and Security Forces through the 
contributions that we've made, the work that we've done, not 
only through the Afghan Security Forces fund, but the work that 
we're doing with our partners in NATO, to buildup those 
capabilities so that the Afghans themselves are able to pursue 
shared counterterrorism objectives.
    So, that's part of our enduring mission there in 
Afghanistan is to help ensure that we have a capable and strong 
Afghan partner that we can work with and that can operate 
ultimately on its own.
    Mr. Comer. Thank you, Mr. Chairman. I yield back.
    Mr. Lynch. The gentleman yields.
    The Chair now recognizes the gentlewoman from Michigan, Ms. 
Lawrence, for five minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    I appreciate that women are included in Afghan Government's 
negotiating team, but I also fear that multiple high-profile 
attacks against prominent Afghan women in recent months may be 
a dangerous sign of things to come. In August, Fawzia Koofi, 
one of Afghan's Government female negotiators, was injured in 
an apparent suicide attempt. During a recent incident that same 
month, Saba Sahar, an actress and director, was shot in Kabul. 
And in July, the Taliban reportedly executed a woman prisoner 
guard, shooting her eight times after abducting her from a bus.
    Mr. Ambassador, I serve on the Women's Caucus here in 
Congress and very active in laws and policy to protect women's 
rights and freedoms in America. What specific steps are you and 
the Department of State taking to protect the rights and status 
of women and girls in Afghanistan?
    Mr. Khalilzad. Thank you very much, Congresswoman. I 
believe that protecting the rights of Afghan citizens, their 
human rights, particularly women and minorities, are one of our 
highest priorities. This speaks to our interest but especially 
to our values, and we're committed to advancing and protecting 
those values and those interests.
    Mrs. Lawrence. Can you give me some specific language or 
programming to ensure that you are achieving that goal?
    Mr. Khalilzad. Well, specific, for example, was that we 
insisted that women be included in the negotiating team. I'm 
speaking about my role, which is as a peace process in 
negotiations, and women are included in the negotiating team, 
including Fawzia Koofi that you referred to.
    Mrs. Lawrence. Yes.
    Mr. Khalilzad. And we meet--I have met twice with the 
Afghan women delegates that are in Doha. And we have said that 
as negotiations go on, although it's Afghan's own, Afghan led, 
that our future assistance, support, will depend on what 
decisions are made. And in those decisions, the rights of women 
protecting the achievements of the past will be central.
    Mrs. Lawrence. Mr. Ambassador, have you received any 
assurances from the Taliban that they intend to protect the 
right and the status of Afghan women and girls? Have you 
received from them in a negotiation the actual language or 
commitment to protect women and girls from the Taliban? Have 
you received that?
    Mr. Khalilzad. They have spoken on this positively that 
women have the right to education, to work, to be ministers, 
but, you know, it's less important--although it's important, 
but less important what they say, we will see what they do if 
they become part of a future government. And that, in turn, 
will affect our policy toward them and toward Afghanistan.
    Mrs. Lawrence. I want to say, Mr. Chairman, if we are to 
continue to set a moral example for the rest of the world, we 
cannot abandon women and girls of Afghanistan's to be oppressed 
by the Taliban again. And I want to be very clear that we as a 
government, I feel strongly, that instead of hopes and dreams, 
that we actually negotiate policies to protect women and girls 
in our agreements.
    Thank you, and I yield back.
    Mr. Lynch. The gentlelady yields back.
    I do want, just a matter of clarification, Fawzia Koofi was 
injured in an assassination attempt; she was not injured in a 
suicide attempt.
    Mr. Khalilzad. I agree with you.
    Mr. Lynch. Just want to clarify that. And she returned to 
negotiations afterwards, so pretty heroic in her regard.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Malinowski, for five minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Ambassador, we've already established at this hearing that 
the Taliban continues its cooperation with al-Qaida. Have they 
instructed their followers explicitly to discontinue that 
cooperation, yes or no?
    Mr. Khalilzad. I have--I need a different setting to 
comment on that.
    Mr. Malinowski. OK. Well, the cooperation we've established 
continues. Is it even a requirement of our agreement with the 
Taliban explicitly that they stop their cooperation with al-
Qaida?
    Mr. Khalilzad. The condition of the agreement that will 
affect what we do that they do not host, they do not train, 
they do not allow fundraising for terrorist groups such as al-
Qaida, and that they----
    Mr. Malinowski. But the agreement does not--excuse me. The 
agreement does not say al-Qaida. It simply says terrorist 
groups.
    Mr. Khalilzad. No. It does say al-Qaida.
    Mr. Malinowski. It says al-Qaida with respect----
    Mr. Khalilzad. Such as al-Qaida.
    Mr. Malinowski [continuing]. With respect to allowing a tax 
from Afghan soil to the United States, but it explicitly does 
not say al-Qaida when it comes to cooperation with terrorist 
groups. Presumably al-Qaida resisted that.
    Mr. Khalilzad. The categories I just enumerated applies to 
al-Qaida as well.
    Mr. Malinowski. That's not in the agreement. And if you can 
show me another part of the agreement that explicitly says 
that, I would appreciate it.
    Would it violate the agreement if the Taliban conducted any 
of those activities with al-Qaida from Pakistani soil, yes or 
no?
    Mr. Khalilzad. That would--we would regard that as a 
violation, but the agreement is about Afghanistan.
    Mr. Malinowski. Correct. So, the agreement does not 
preclude them from cooperating with al-Qaida to attack 
Americans from Pakistan. And the Taliban operates on both sides 
of the----
    Mr. Khalilzad. We would regard that as a violation if they 
did.
    Mr. Malinowski. Interesting. Well, I wish it were in the 
agreement itself.
    Would it be violating our agreement with the Taliban if the 
Taliban stoned a hundred women to death in a soccer stadium, 
yes or no?
    Mr. Khalilzad. Well, our agreement has four parts. I don't 
know we're in accord, so I have to explain this. It's a little 
complicated.
    Mr. Malinowski. Well, I've read it and I haven't seen 
anything that would include that. So, am I right or wrong?
    Mr. Khalilzad. I just think the issues of what happens, the 
future of Afghanistan and relations between Taliban and other 
groups and how a future government deals with its population, 
what they do will affect what we do in terms of our assistance 
program.
    Mr. Malinowski. Correct. So, it's not a condition in the 
agreement, nor would it violate the agreement if the Taliban 
were, for example, assassinating Afghan Government officials or 
attacking or trying to assassinate members of Afghan civil 
society, as the Afghan Government believes they're doing now. 
Is that correct?
    Mr. Khalilzad. As I said, we are--our objective is to bring 
Afghans together to negotiate the future in which they can live 
in peace with each other. And depending on whether they do or 
not and what policies that government pursues, we will respond 
to that based on what we do or don't do.
    Mr. Malinowski. Got it. But I'm talking about the 
conditions for withdrawal. Because you say in your testimony 
that our withdrawal is conditions based.
    Mr. Khalilzad. If condition is terrorism----
    Mr. Malinowski. So, let me just be very clear. Are there 
any conditions tied to the withdrawal other than they not shoot 
at our troops as we leave and not allow attacks on the United 
States from Afghan soil?
    Mr. Helvey, are there any other conditions tied to the 
withdrawal in the agreement? Yes or no?
    Mr. Helvey. The agreement, as the Ambassador is saying, 
does specify not only do they have commitments for 
counterterrorism and our expectations for which they're not 
fully compliant, there is moving forward in intra-Afghan 
negotiations or the Afghan peace negotiations, which they have, 
there are specific provisions not attacking our forces, but we 
do have expectations of a reduction in violence, and the 
violence that we are seeing today is too high----
    Mr. Malinowski. Understood. I'm glad that that is our 
expectation, but, again, the Taliban have made no commitments 
in that regard. And, look, we haven't just promised to withdraw 
fully. We've also pressured the Afghan Government to release 
Taliban prisoners, terrorists, which they have done. We've 
promised to lift sanctions against Taliban leaders. If we're 
going to leave, and many Americans want us to leave, why give 
them these gifts on the way out?
    Mr. Khalilzad. Well, because we just don't want to leave, 
because we could have left. We didn't need anybody's permission 
to leave. It is because we want a peace agreement to end the 
war in Afghanistan, but that's not what the Afghan people want.
    Mr. Malinowski. Well, that's not a condition of our----
    Mr. Khalilzad. It's difficult--well, we have four elements 
in the agreement, as I said, and that's a package which has 
intra-Afghan negotiation and a permanent cease-fire. And 
without those difficult decisions--and I know we're not happy 
about those release of prisoners, but those difficult decisions 
were necessary to get to where we are where peace negotiations 
can start. And we will decide based on what happens in the 
peace negotiations and what they do on the terrorism front.
    Mr. Malinowski. Well, let me just say in conclusion, I hear 
you saying things like the Taliban have learned their lesson 
and the Taliban want good relations with the outside world and, 
sir, I have to say, it strikes me as incredibly naive.
    This is a totalitarian movement that seeks power in 
Afghanistan. Not peace, but power. And to base our hopes on--to 
base our policy on the hope that somehow it has changed its 
nature, while providing all of these concessions up front, and 
the only thing that they promise to do is to stop shooting at 
us as we leave, I think--look, we're all for peace, and I 
understand people want to leave, but I think what you're 
selling us is not peace; it is a fairy tale to make us feel 
better about leaving Afghanistan.
    And with that, I yield.
    Mr. Khalilzad. Now, Mr. Chairman, we're not giving an 
accounting on the words of the Talibs. The agreement is 
condition based on our management if we are to implement the 
agreement with them to see behavior, just not words. And I also 
would like to say that among the alternatives that we face, 
this is the best available, given the constraints and 
alternatives available.
    Thank you.
    Mr. Lynch. In closing, I want to thank--hearing no further 
questions, in closing, I want to thank the panelists. Thank 
you, Ambassador, thank you, Mr. Secretary, for your testimony 
here today. I want to commend my colleagues for their very 
active participation on this important discussion. This is 
certainly a momentous time for Afghanistan and the region, and 
a moment of great consequence.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses, through the Chair, which will be 
forwarded to the witnesses for their response. And I ask if 
there are further questions, that the witnesses to please 
respond as promptly as you are able.
    This hearing is now adjourned.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
